                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

1)   Case Number: A06 1 10053                                                 11         Page 1 of 1



                 We received several allegations concerning an NSF program officer (PO) and a
          particular NSF-funded project under the PO's responsibility.'

                 It was alleged that the PO was misusing appropriated funds by directing the awardee
          to spend funds in a manner inconsistent with the appropriations account that funded the
          project. We concluded that appropriations accounts are not as clearlydelineated as set out
          in these allegations, and the expenditures identified were within the scope of the project.

                 It was alleged that NSF made misrepresentations about the project to Congress, but
          there was no evidence of misrepresentations and we found no reason to suspect them.

 I                It was alleged that the PO micromanaged the project and did not leave enough
          decisionmaking to the awardee. It was also alleged that some of the PO'Sdecisions were poor
          ones. We concluded that, while the PO's oversight of the project was certainly not optimal,
          it was not unreasonable.

                It was alleged that the PO was abrasive and abusive when interacting with the
          awardee. We concluded that, while the PO's conduct was abrasive, it was not sufficiently
          extreme to warrant intervention by our office.

                 It was also alleged that the PO made threats to retaliate against a scientist in future
          proposals, because the scientist wrote a letter seeking to have one of the PO's decisions
          changed. While several people associated with the project stated that they heard the PO
          make this threat, the PO denied it emphatically and we found no evidence that she had
          taken any retaliatory action. The PO agreed to be recused from any future proposals
          involving the scientist.

                    Accordingly, this case is closed,




 NSF OIG Forn12 (11/02)
